       SIGAR                                      Special Inspector General for
                                                   Afghanistan Reconstruction




                                                              SIGAR Inspection 13-10




            Bathkhak School: Unauthorized Contract
            Design Changes and Poor Construction Could
            Compromise Structural Integrity




                                                                           JULY
                                                                         2013

SIGAR Inspection 13-10/Bathkhak School Addition
  SIGAR
                                                               July 2013
                                                               BATHKHAK SCHOOL: UNAUTHORIZED CONTRACT DESIGN CHANGES AND
                                                               POOR CONSTRUCTION COULD COMPROMISE STRUCTURAL INTEGRITY


                                                               SIGAR INSPECTION 13-10

  Special Inspector General for                                WHAT SIGAR FOUND
  Afghanistan Reconstruction                                   Bathkhak school is not being constructed in accordance with contract
                                                               requirements. Instead of a single-story, 10-classroom building, two 5-classroom
  WHAT SIGAR REVIEWED                                          buildings are being built. SIGAR also found that the contractor freely
  In August 2012, U.S. Forces-Afghanistan (USFOR-              substituted building materials without U.S. government approval. For example,
  A), through the Commander’s Emergency                        brick instead of cinder block was used for the walls, and a concrete slab
  Response Program, awarded a $262,899 contract                ceiling/roof was installed instead of a wood-trussed roof framing system that
  to Emaar Emarat Construction Company to build an             was called for in the contract. SIGAR found no documentation that substitutions
  addition and improve conditions at a school                  were approved through contract modifications or that prices for those
  located in the village of Bathkhak, in the Bagrami           substitutions were reviewed as required by the Federal Acquisition Regulation.
  district, Kabul province.                                    More significantly, the use of a concrete ceiling/roof instead of a wood-trussed
                                                               roof framing system with a sheet metal roof raises serious safety concerns
  The contract had a 150-day period of performance             because the Bathkhak school is located in an area of high seismic activity. This
  and required construction of a single-story, 10-             potentially dangerous change to the original contract requirements raises
  classroom building to be added to the school’s               serious concerns for the safety of the hundreds of faculty and children that will
  existing facilities. It also required building a             be using the classrooms at any given time. Based on the serious nature of this
  structure to house the generator, repairing the              issue, SIGAR recently issued a safety alert letter (SIGAR SP-13-6).
  water wells, installing an irrigation system,
  completing the brick wall around the compound,               The school addition appears to have design and construction flaws that could
  and upgrading the existing classroom building,               compromise its structural integrity. SIGAR found, among other things, (1) large
  including replacing all interior doors and broken            gaps between bricks in the walls that support the concrete ceiling/roof; (2)
  windows, repainting the interior, and installing             walls that did not appear to be reinforced; and (3) honeycombing, exposed
  gutters.                                                     rebar, and concrete form boards remaining in the roof. Each of these issues
                                                               could compromise the building’s structural integrity. For example,
  This report assesses whether (1) construction was            honeycombing can be caused by inadequate vibration during pouring of the
  being completed in accordance with contract                  concrete, leaving air bubbles which, depending on the location, can significantly
  requirements and applicable construction                     weaken the structure. Additional deficiencies that cannot be seen, such as
  standards, and (2) any construction deficiencies             incorrect placement of the roof’s rebar—which helps supply the concrete’s
  had been identified and, if so, corrected.                   strength—may also be present.

WHAT SIGAR RECOMMENDS
SIGAR recommends that the Commanding General, USFOR-A, direct the appropriate
USFOR-A units to take the following steps: (1) perform an immediate physical
inspection of the two new school buildings, including appropriate tests and
analyses, and determine whether to certify their structural integrity; (2) require the
contractor to correct any deficiencies or substandard work identified during the
physical inspection and tests; (3) review the product substitutions made and, based
on a price analysis, determine whether the changes warrant a reduction in the
overall cost of the contract; and (4) identify the contracting officer(s) responsible for
initial oversight of the Bathkhak school construction activities and determine why:
(a) no oversight visits were made during the first 6 months of construction, (b) no
contract modifications were made approving the contractor’s substitution of
                                                                                            Two 5-classroom buildings under construction
building materials, and (c) no pricing determinations were made of the building
                                                                                            instead of single 10-classroom building
materials substituted for those required in the contract. After making these
determinations, decide what disciplinary action should be taken, if any, against the        Source: SIGAR photo, January 20, 2013.
contracting officer(s) responsible for not properly overseeing construction activities.
In its comments, USFOR-A generally agreed with SIGAR’s recommendations and noted that it has implemented several new policies and
re-inspected all recently completed projects as a result of SIGAR’s report.

        For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 24, 2013

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command, and
   Deputy Commander, U.S. Forces–Afghanistan

Major General James M. Richardson
Deputy Commander, Joint Operational Corps Headquarters-Afghanistan, and
  Commander, U.S. National Support Element Command-Afghanistan


This report discusses the results of SIGAR’s inspection of the Bathkhak School addition in the
Bagrami district, Kabul province, Afghanistan. The Commander’s Emergency Response
Program funded this project. This report includes four recommendations to the Commander,
U.S. Forces–Afghanistan (USFOR-A), to direct the appropriate USFOR-A units to take the
following steps: (1) perform an immediate physical inspection of the two new school buildings,
conduct appropriate tests and analyses, and determine whether to certify their structural
integrity; (2) require the contractor to correct any deficiencies or substandard work identified
during the physical inspection and tests; (3) review the product substitutions made and, based
on a price analysis, determine whether the changes warrant a reduction in the overall cost of
the contract; and (4) identify the contracting officer(s) responsible for initial oversight of the
Bathkhak school construction activities and determine why (a) no oversight visits were made
during the first 6 months of construction, (b) no contract modifications were made approving
the contractor’s substitution of building materials, and (c) no pricing determinations were
made of the building materials substituted for those required in the contract. After making
these determinations, decide what disciplinary action should be taken, if any, against the
contracting officer(s) responsible for not properly overseeing construction activities.
In its written comments on a draft of this report, USFOR-A generally agreed with SIGAR’s
recommendations and noted that, as a result of SIGAR’s report, it has implemented several
new policies and re-inspected all recently completed infrastructure projects. USFOR-A’s
comments are reprinted in appendix IV.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
and the Inspector General Act of 1978, as amended, and in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS

Background .................................................................................................................................................................. 1

Bathkhak School Facilities Are Not Being Constructed in Accordance with Contract Requirements .................... 2

Poor Workmanship Resulted in Construction Deficiencies That Could Compromise the School’s Structural
Integrity ........................................................................................................................................................................ 4
Conclusion.................................................................................................................................................................... 6

Recommendations ...................................................................................................................................................... 7

Agency Comments ....................................................................................................................................................... 7

Appendix I - Scope and Methodology ......................................................................................................................... 9

Appendix II - Bathkhak School Site Plan................................................................................................................... 10

Appendix III - Construction Activities That Deviated from Contract Requirements ................................................ 11
Appendix IV - Comments from U.S. Forces-Afghanistan .......................................................................................... 12

Appendix V - Acknowledgments ................................................................................................................................ 15

TABLES

Table 1 - Bathkhak’s Construction Activities That Deviated from Contract Requirements ................................... 11

FIGURES

Figure 1 - Location of Earthquakes in Afghanistan since 1964 ............................................................................... 3

Figure 2 - Site Plan .................................................................................................................................................... 10


PHOTOS

Photo 1 - New Classroom Building under Construction ............................................................................................ 1

Photo 2 - New Classroom Construction with Brick Walls and Concrete Ceiling/Roof ............................................. 2

Photo 3 - School Building’s Exterior Brick Wall with Gaps in the Mortar .................................................................. 4

Photo 4 - Concrete Ceiling/Roof Showing Poor Workmanship ................................................................................. 5


ABBREVIATIONS & ACRONYMS

             CERP                               Commander’s Emergency Response Program

             USACE                              U.S. Army Corps of Engineers
             USFOR-A                            U.S. Forces-Afghanistan




SIGAR Inspection 13-10/Bathkhak School Addition                                                                                                                           Page i
The Department of Defense’s Commander’s Emergency Response Program (CERP) provides unit commanders
with funds to respond quickly to urgent humanitarian relief and reconstruction needs in Afghanistan. 1 CERP
funds have been used for a variety of projects, including public roads, schools, and medical clinics. This CERP
project, a school building addition, was requested by the village elders in Bathkhak, located in the Bagrami
District, Kabul province.
For this inspection, we assessed (1) whether construction was being completed in accordance with contract
requirements and applicable construction standards, and (2) whether any construction deficiencies had been
identified and, if so, corrected.
We conducted this inspection in Kabul province, Afghanistan, from September 2012 through June 2013, in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I contains a more detailed discussion of our scope and methodology.


BACKGROUND

On August 27, 2012, a U.S. Forces-Afghanistan (USFOR-A) Regional Command-Central task force awarded a
$262,899 contract (20120627131725) to Emaar Emarat Construction Company. 2 The contract, with a 150-
day period of performance, required the construction
of a single-story, 10-classroom building to be added to  Photo 1 - New Classroom Building under
the school’s existing facilities (see photo 1). The      Construction
contract also required building a structure to house the
generator, repairing the water wells, installing an
irrigation system, completing the brick wall around the
school compound, constructing sidewalks, replacing
the volleyball court with a basketball court, and
providing power and lighting for the new school
building. The contract further required upgrading the
existing classroom building, including replacing all
interior doors and broken windows, repainting the
interior, and installing gutters.
The Ministry of Education is responsible for the
Bathkhak school, which originally included a two-story,
12-classroom building; single-story administration
office; guard building, water well; and perimeter wall.     Source: SIGAR photo, January 20, 2013.
Appendix II provides a layout of the existing school
along with the new facilities. According to the headmaster, the school currently has about 1,500 students,
ages 7 through 20, who attend one of three daily class sessions. The headmaster stated that the existing
facilities were not large enough to serve the community and, as a result, students were being turned away. The




1 CERP funding criteria for project selection includes (1) sustainability by the local community, an Afghan agency, or the

Afghan government; (2) benefit to the Afghan population; (3) high visibility to the local populace; (4) support for local,
community, and national employment; and (5) ability to be quickly executed.
2 Emaar Emarat Construction Company was established in 2011, and registered with the Afghanistan Investment Support

Agency to conduct business in Afghanistan. There are several different spellings for the company name; in this report, we
use the name as it appears on the contract.



SIGAR Inspection 13-10/Bathkhak School Addition                                                                        Page 1
headmaster also told us that the newly added facilities will enable the school to accommodate additional
teachers and serve up to 1,500 additional students.


BATHKHAK SCHOOL FACILITIES ARE NOT BEING CONSTRUCTED IN
ACCORDANCE WITH CONTRACT REQUIREMENTS

                                                    We conducted our inspection of the Bathkhak school
Photo 2 - New Classroom Construction with           construction site on January 20, 2013. Based on our
Brick Walls and Concrete Ceiling/Roof               observations and review of design and contract
                                                    documents, the new school facilities are not being built in
                                                    accordance with contract requirements. We found that
                                                    instead of a single 10-classroom building, two 5-classroom
                                                    buildings were being built, and building materials specified
                                                    in the contract were not being used. For example, brick
                                                    was being used for the interior and exterior walls instead of
                                                    the required concrete masonry unit block also known as
                                                    cinder block. Similarly, wooden window frames were
                                                    installed instead of the required vinyl frames. Furthermore,
                                                    a concrete slab ceiling/roof had been installed rather than
                                                    the wood-trussed roof framing system with sheet metal
                                                    roofing (see photo 2).
                                                     USFOR-A task force officials overseeing the project
                                                     produced a memorandum for the record, dated February
                                                     15, 2013, that modified the statement of work to account
                                                     for the work the contractor had conducted that differed
                                                     from the contract requirements. The memorandum stated
                                                     that the Ministry of Education and school headmaster
                                                     directed the changes, and that the Ministry engineer told
                                                     the contractor to build two buildings with five rooms each.
                                                     The memorandum also noted that the statement of work
                                                     specifying that a “concrete masonry building” should be
                                                     constructed was a “typographical error.” However, the
Source: SIGAR photo, January 20, 2013.               Federal Acquisition Regulation states that only contracting
                                                     officers acting within the scope of their authority are
empowered to execute contract modifications on behalf of the U.S. government. 3 When our inspectors
reviewed the project construction files, they could not find any documentation that the task force contracting
officer had reviewed and approved the changes through contract modifications.
The memorandum also stated that the changes made to the statement of work did not increase the project’s
cost. However, under the Federal Acquisition Regulation, contract modifications must be priced before they are
executed, “if this can be done without adversely affecting the interests of the Government.” 4 We found that the
project files contained no documentation showing that contracting officials had reviewed and approved the




3   Federal Acquisition Regulation 43.102.
4   Id.



SIGAR Inspection 13-10/Bathkhak School Addition                                                           Page 2
prices in advance for substituted materials. 5 Appendix III provides more detail on the construction activities
that deviated from the contract requirements.


Use of Concrete Ceiling/Roof Raises Safety Concerns due to Bathkhak School’s
Location in an Earthquake Zone
Emaar Emarat Construction Company’s change from the requirement for a wood-trussed roof framing system
to a flat reinforced concrete ceiling/roof without the contracting officer’s approval or adequate oversight raises
very serious safety concerns. Kabul province is located in an area of Afghanistan that experiences relatively
frequent and intense seismic events. According to the U.S. Embassy in Afghanistan, the area surrounding
Kabul has been the site of numerous shallow earthquakes (less than 50 kilometers in depth) due to its
proximity to a seismic fault line that runs through the Hindu Kush Mountain Region and along the Chaman
fault system. 6 The U.S. Geological Survey has reported that earthquakes represent a serious threat to the
people and institutions of Afghanistan and have killed more than 7,000 Afghans from 1997 to 2007. 7 Figure 1
shows the Chaman, Hari Rud, Central Badakhshan, and Darvaz fault lines and the location of earthquakes that
have occurred in Afghanistan since 1964.

       Figure 1 - Location of Earthquakes in Afghanistan since 1964




       Source: U.S Geological Survey



5 In commenting on a draft of this report, USFOR-A officials stated that they had reviewed the product substitutions and

determined that the substitution costs exceeded the costs of the original contract products. They also stated that the
contractor had agreed to absorb the additional costs (see appendix IV).
6 According to the U.S. Embassy Kabul’s Guide to Earthquake Preparedness and Survival, the Chaman fault system lies

along Pakistan’s frontier with Afghanistan, beginning near Kalat in the northern Makran range and extending along the
border in a north-northeastern direction to Kabul.
7   U.S. Geological Survey, Open-File Report 2007-1137, Preliminary Earthquake Hazard Map of Afghanistan, 2007.



SIGAR Inspection 13-10/Bathkhak School Addition                                                                      Page 3
The U.S. Embassy in Afghanistan also has reported on the natural vulnerability of the city of Kabul’s
infrastructure due to substandard construction. As discussed below, we found no evidence that anyone
oversaw the contractor’s pouring of the concrete ceiling/roof to ensure that the reinforcing steel, known as
rebar, was properly placed within the concrete, that the concrete was properly “vibrated” to eliminate air
pockets that can weaken the structure, or that the concrete consisted of the proper mixture. Further, although
required by USFOR-A operating procedure, 8 we did not find any evidence that consideration was given to an
earthquake-resistant design for the concrete ceiling/roof and its supporting structure. 9


Project Was Not Completed on Time
The contractor did not complete the Bathkhak construction project by the required January 20, 2013,
completion date. At the time of our site visit on January 20, we estimated the project was about 70 percent
complete. The headmaster told us that he anticipated an additional 2 months of construction. Open items
included, among other things, installing windows and doors on the new school buildings; completing a two-foot
height extension to the perimeter wall; purchasing and connecting a generator; and refurbishing the existing
school building.
We did not find any letters of concern in the project files in which USFOR-A notified the contractor that it was
behind schedule and needed to adopt a more aggressive approach to complete the project. Also, although the
contractor had exceeded the period of performance, there was no documentation in the project files indicating
that the contracting officer had approved a new project completion date. USFOR-A officials told us they made a
site visit on June 13, 2013, and discovered that the project was still not complete. The officials also stated that
they informed the contractor they would immediately begin imposing a $100 per day penalty until the contract
work was completed.


POOR WORKMANSHIP RESULTED IN                                            Photo 3 - School Building’s Exterior Brick Wall
CONSTRUCTION DEFICIENCIES THAT                                          with Gaps in the Mortar
COULD COMPROMISE THE SCHOOL’S
STRUCTURAL INTEGRITY

During our inspection, we observed several construction
deficiencies associated with poor workmanship that could
lead to future structural problems for the Bathkhak school.
For example, we noted inadequate amounts of mortar
being used, which left large gaps between bricks of the
school building’s interior and exterior walls (see photo 3).
The walls make up the structure supporting the concrete
ceiling/roof and, as such, need to be laid properly with
sufficient amounts of mortar to help resist structural
failure.
                                                                        Source: SIGAR photo, January 20, 2013.
Our engineer examined the concrete roof and structural
components and noted three areas of poor workmanship: (1) honeycombing, also known as “rock pockets,” in
the set concrete; (2) exposed rebar; and (3) concrete form boards that had not been removed before the



8 USFOR-A Publication 1-06, Money As A Weapon System-Afghanistan Commander’s Emergency Response Program

Standard Operating Procedure, March 2012.
9   Based on the serious nature of this issue, SIGAR recently issued a safety alert letter. See SIGAR SP-13-5.



SIGAR Inspection 13-10/Bathkhak School Addition                                                                  Page 4
concrete hardened. Honeycombing is evidence of poor concrete consolidation, which may be caused by too dry
a mix, incorrect aggregate size relative to the rebar’s clearance, or inadequate vibration during pouring of the
concrete leaving air bubbles in the concrete mix. 10 Depending on the location of these defects, honeycombing
can significantly weaken the structure. Exposed rebar will eventually rust and compromise the integrity of the
concrete and cause it to fail. 11 Lastly, the concrete form boards, which should have been removed, will
eventually rot, leaving a space between the roof and the supporting beams, which will weaken the overall
structure (see photo 4).

Photo 4 - Concrete Ceiling/Roof Showing Poor Workmanship




Source: SIGAR, January 20, 2013

We found no evidence that USFOR-A had anyone present to oversee pouring of the concrete ceiling/roof to
ensure that the rebar was properly welded and placed and that the concrete consisted of the proper mix. The
poor quality of workmanship that we observed raises questions about certain aspects of the construction that


10 American Concrete Institute Education Bulletin El-07, Aggregates for Concrete, August 2007, notes that "failure of a

concrete strength specimen most often starts as microcracks between the mortar and the surfaces of the largest aggregate
particles". Aggregate is granular material such as sand, gravel, and crushed stone that usually occupies approximately 60
to 75 percent of the volume of concrete. Aggregate properties significantly affect the durability, strength, and density of
hardened concrete. To ensure a good distribution of particles of aggregate of varying sizes, Field Manual 3-34.400, General
Engineering, Department of the Army, December 2008, recommends that the maximum size of coarse aggregate not
exceed 1.5 inches for a heavily reinforced slab, 6-11 inches in width.
11 Reinforced concrete is a combination of adequate steel reinforcement or “rebar” and concrete designed to work together

to resist applied loads. Properly placed reinforcement in concrete improves its compressive strength and provides tensile
strength. The American Concrete Institute notes “In addition to unintentional omission of part or all of the reinforcement,
improper placement of the reinforcement designed to resist tension is one of the most common causes of structural
concrete failures.” American Concrete Institute Education Bulletin E2-00, Reinforcement for Concrete-Materials and
Applications (2000, reapproved 2006).



SIGAR Inspection 13-10/Bathkhak School Addition                                                                    Page 5
we could not observe because the ceiling/roof had been completed. USFOR-A operating procedure requires
that, under the CERP program, at least three site visits be made during the construction project. 12 Documents
that we obtained show that the first site visit occurred in February 2013, or almost 6 months after construction
began, and when the buildings were about 70 percent complete. We found no documentation showing that the
original task force that awarded the contract ever visited the construction site to oversee some of the more
critical aspects of construction, such as the roof and walls. 13
Our examination of the new school buildings’ interior concrete ceilings revealed that large stones—up to
5 centimeters (2 inches) in diameter—had been included in the concrete mixture. Stones of this size normally
will sink to the bottom of the mixture and weaken the structure. Similar to the exterior roof, we also observed
honeycombing on the interior ceiling of the building, which could also significantly weaken the structure.
The Bathkhak school also may have design deficiencies that are putting the building at further risk. First, the
rigid concrete ceiling/roof sits on top of the brick walls, but because there was no U.S. oversight during
construction, it is not known whether the walls were reinforced. For example, walls can be reinforced by using a
type of brick designed for rebar to add reinforcement. Second, during our inspection, our engineer noted that
the classroom windows and doors were located close together and along one side of the building. As a result,
during a seismic event, the narrow wall sections between the windows and doors could experience a
disproportionate amount of force and could be the first to fail, causing the other walls to buckle and the roof to
collapse. Without proper design analysis, it cannot be certain that the brick walls will support the weight of the
concrete roof.


CONCLUSION

The new Bathkhak school has serious design and construction flaws and could be a disaster waiting to
happen. Problems began with the contractor freely substituting building materials and doing so without proper
approval. Building materials that the contractor substituted were not reviewed for price as required. Most
significantly, the concrete ceiling/roof that was substituted for the wood-trussed framing system has visible
defects. Proper U.S. oversight, the lack of which has been a recurring theme in our inspection reports, would
have detected and corrected these conditions during construction. However, we found no evidence of any
oversight for the first 6 months after construction began. In addition to finding construction deficiencies that
can be seen, it is more disconcerting to note that there may be deficiencies that cannot be seen after 6
months of construction, such as possible incorrect placement of the roof’s rebar, which supplies the concrete’s
strength. The contractor made a bad situation worse by placing a heavy rigid concrete roof on top of what
appears to be unreinforced and poorly constructed supporting brick walls. Consequently, the building’s
structural integrity could be compromised. The school’s location in a high seismic activity area, exacerbated by
construction flaws and no consideration for an earthquake-resistant design, raises serious safety concerns due
to the large number of faculty and students that will be using the classrooms at any given time.




12 USFOR-A Publication 1-06, Money As A Weapon System-Afghanistan Commander’s Emergency Response Program

Standard Operating Procedure, March 2012.
13 In commenting on this report, USFOR-A stated that, at the request of the current project manager, a U.S. Army Corps of

Engineers (USACE) licensed structural engineer had performed a building structural assessment to determine the integrity
of the building. The engineer determined that the ceiling reinforcement may be inadequate and should be monitored for
future cracks. Prior to transferring the school to the Afghan government, USFOR-A officials plan to meet with the Ministry of
Education and determine whether the Ministry will accept risk for the buildings. If the Ministry accepts the structure,
USFOR-A further noted that, as the structural engineer recommended, the ceiling should be monitored for future cracks.




SIGAR Inspection 13-10/Bathkhak School Addition                                                                       Page 6
RECOMMENDATIONS

To ensure that the Bathkhak school addition is adequately designed and constructed to meet the Afghan
government’s needs, and to protect the U.S. government’s investment, we recommend that the Commander,
USFOR-A, direct the appropriate USFOR-A units to take the following steps:

    1. Prior to turning over the facilities to the Afghans, perform an immediate physical inspection of the two
       new school buildings, including appropriate engineering tests and analyses, and determine whether to
       certify the structural integrity of the buildings.
    2. Require the contractor to correct any deficiencies or substandard work identified during the physical
       inspection and tests.
    3. Review the product substitutions made, and, based on a price analysis, determine whether the
       changes warrant a reduction in the overall cost of the contract.

    4. Identify the contracting officer(s) responsible for initial oversight of the Bathkhak school construction
       activities and determine why

         (a) no oversight visits were made during the first 6 months of construction;

         (b) no contract modifications were made approving the contractor’s substitution of building
             materials; and

         (c) no pricing determinations were made of the building materials substituted for those required in
             the contract.

         After making these determinations, decide what disciplinary action, if any, should be taken against
         the contracting officer(s) responsible for not properly overseeing construction activities.


AGENCY COMMENTS

We received comments on a draft of this report from USFOR-A, which we incorporated into the final report, as
appropriate. USFOR-A comments are reproduced in appendix IV.
USFOR-A generally agreed with our recommendations and noted that, as a positive result of our report, it has
implemented several new policies and re-inspected all recently completed CERP infrastructure projects within
its battle space. USFOR-A commented that, so far, it has found deficiencies at 7 of 14 sites and that the
responsible contractors are making corrections. USFOR-A also stated that it is limiting its contracting officers’
and representatives’ project workloads to ensure these issues do not occur in the future.
With regard to our specific recommendations, USFOR-A agreed with our recommendation to conduct an
immediate physical inspection of the two new school buildings, including appropriate engineering tests and
analyses, and determine whether to certify the buildings. USFOR-A stated that a USACE licensed structural
engineer performed an assessment to determine the structural integrity of the buildings. Although the
buildings met the Afghan Ministry of Education’s standards, USACE’s engineer concluded that the ceiling
reinforcement may be inadequate and should be monitored for future cracks. USFOR-A also commented that,
prior to transferring the school, it will meet with Ministry of Education officials to determine if the Ministry is
willing to accept the risk for the buildings based on USACE’s report. USFOR-A noted that, if the buildings are
accepted “as is” by the Ministry of Education, the ceiling should be monitored for any cracks exceeding 2
millimeters. We will review USACE’s structural assessment report and determine whether it adequately
addresses our recommendation.
USFOR-A also agreed with our second recommendation to require the contractor to correct any deficiencies or
substandard work identified during the physical inspection and tests. USFOR-A stated that it had conducted


SIGAR Inspection 13-10/Bathkhak School Addition                                                               Page 7
inspections on February 14, 2013, and March 16, 2013, and informed the contractor to correct identified
deficiencies. USFOR-A further noted that any discrepancies identified during the final inspection will be
addressed, and that the contractor has a 1-year warranty for any defects with its work. Although these are
positive steps, they were not taken until 6 months after construction began. Further, as noted in our report,
because there was no oversight during critical periods of construction, such as setting the rebar and pouring
the concrete for the ceiling/roof, it is not known whether there are deficiencies associated with these activities.
In addition, USFOR-A agreed with our third recommendation to review product substitutions made by the
contractor and determine whether they warrant an overall reduction in the contract cost. USFOR-A stated that
the Afghan Ministry of Education directed the substitutions made by the contractor. USFOR-A noted that it
performed a review which showed that the cost of the substitutions exceeded the cost of the original contract
required materials and that the contractor agreed to absorb the additional costs. Although USFOR-A noted that
a contract modification was made to cover changes to the statement of work, it is unclear whether these
changes were approved in writing by the provincial reconstruction team engineer or project purchasing officer
as required by the statement of work. Unless these approvals were obtained, the statement of work required
the contractor to adhere to the approved design. We will review USFOR-A’s cost analysis and the modification
to the statement of work to determine whether these actions adequately address this recommendation.
USFOR-A did not explicitly agree or disagree with our final recommendation regarding inadequate oversight of
the contract and holding the responsible officials accountable. However, USFOR-A stated that no disciplinary
action should be taken against these officials because other factors—such as local security conditions,
availability of coalition support, contractor issues, construction supplies, weather, and personnel availability—
also affect project management. While we appreciate the challenges that USFOR-A units face in carrying out
their duties in Afghanistan, we continue to believe that USFOR-A should do a more in-depth inquiry into the
circumstances surrounding why its contract management requirements were not fulfilled. For example,
USFOR-A’s comments describe nine oversight visits that were made on the project, but its comments do not
address why none of these visits occurred during the project’s first several months. In addition, while noting
that substitution of building materials were made at the direction of Afghan Ministry of Education, USFOR-A’s
comments do not explain why no contract modifications were made in response to these substitutions. Rather
than dismissing the idea of holding the appropriate officials accountable, we believe that a more thorough
inquiry into the specific reasons contract management requirements were not adhered to would provide a
stronger basis to determine whether disciplinary action is appropriate. Effective oversight is critical to ensure
that U.S. funded projects are efficiently and effectively executed and that U.S. taxpayer funds are not being
wasted. In our view, a vital part of effective oversight is holding those officials that are responsible for the
execution of projects accountable for failure. We will continue to monitor this situation to ensure appropriate
action, if needed, is taken regarding the actions of the contracting officer.




SIGAR Inspection 13-10/Bathkhak School Addition                                                             Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides SIGAR’s inspection results of the Bathkahk school addition. The school is located in the
village of Bathkhak, located in the Bagrami district, Kabul province, Afghanistan. We conducted our inspection
on January 20, 2013. This is one in a series of inspection reports that will focus on medical, education, and
police facilities located in Kabul province.
For this inspection, we assessed whether (1) construction was being completed in accordance with contract
requirements and applicable construction standards, and (2) any construction deficiencies had been identified
and, if so, corrected.
To determine whether construction was being completed in accordance with contract requirements and
applicable construction standards and whether construction deficiencies had been identified and corrected,
we:
    •   reviewed contract documents, design materials, and geotechnical reports to understand project
        requirements and contract administration;
    •   interviewed U.S. and Afghan officials involved with the construction project; and
    •   conducted a physical inspection and photographed the project site to observe the current status and
        the quality of construction.
SIGAR conducted its work in Kabul province from September 2012 through June 2013, in accordance with the
Quality Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency. These standards were established to guide all inspection work performed by all the
Offices of Inspectors General. The engineering assessments were conducted by professional engineers in
accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We did not rely
on computer-processed data in conducting this inspection. We considered the impact of compliance with laws
and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended, and the Inspector General Act of 1978, as amended.




SIGAR Inspection 13-10/Bathkhak School Addition                                                         Page 9
APPENDIX II - BATHKHAK SCHOOL SITE PLAN

Figure 2 - Site Plan




Source: SIGAR Generated




SIGAR Inspection 13-10/Bathkhak School Addition   Page 10
APPENDIX III - CONSTRUCTION ACTIVITIES THAT DEVIATED FROM CONTRACT
REQUIREMENTS

The contract’s statement of work defines the work required to be performed. Any deviations from the
statement of work must be approved through contract modifications. Federal Acquisition Regulation, Subpart
43.102, states that only contracting officers acting within the scope of their authority are empowered to
execute contract modifications on behalf of the U.S. government. Table 1 shows the Bathkhak construction
activities that deviated from contract requirements.

 Table 1 - Bathkhak’s Construction Activities That Deviated from Contract Requirements
                       Requirement                                                 Actual Construction

 Single-story, 10-classroom building with interior hallway   Two single story, 5-classrom buildings with exterior exits

 Cinder block interior and exterior walls                    Brick interior and exterior walls

 Wood trussed framing system with sheet metal roofing        Concrete slab ceiling/roof

 Vinyl window frames                                         Wood window frames

 Wooden interior doors                                       No interior doors due to changing to exterior exits

                                                             Ten exterior exit doors due to change from one to two
 Six exterior exit doors
                                                             classroom buildings

 No requirement to refinish concrete floors                  Refinished concrete floors

                                                             School no longer has a generator because site is connected to
 Construct shelter around the school’s generator
                                                             city power

 Source: U.S. Forces-Afghanistan awarded contract 20120627131725 and SIGAR’s January 20, 2013, site visit.




SIGAR Inspection 13-10/Bathkhak School Addition                                                                       Page 11
APPENDIX IV - COMMENTS FROM U.S. FORCES-AFGHANISTAN



                                                 DEPARTMENT OF THE ARMY
                                             HEADQUARTERS, TASK FORCE TARPON
                                               KABUL BASE CLUSTER COMMAND
                                            UNITED STATES FORCES - AFGHANISTAN
                                                CAMP PHOENIX, AFGHANISTAN
                                                        APOAE09320

              AFZF-TFT-CO                                                                                18 July 2013


              MEMORANDUM THRU Commander, United States Forces-Afghanistan

              FOR Commander, United States Central Command

              SUBJECT: SIGAR Inspection 13- 10 Bathkhak School: Unauthorized Contract Design
              Changes and Poor Construction Could Compromise Structural Integrity


              I. I have reviewed the following recommendations on SIGAR Inspection 13-1 0 and added my
              comments.

              a. Prior to turning over the faci lities to the Afghans, perform an immediate inspection of the two new
              school buildings, including appropriate engineering tests and analyses, and determine whether to
              certify the structural integrity of the buildings.

              CONCUR with COMM ENTS: On 27 June 2013, on the request of the current Project Manager, a
              licensed structural engineer from the United States Army Corps of Engineers (USACE) performed a
              building structural assessment to include test and analysis for determination of the structural integrity
              of the building. The engineer determined that the ceiling reinforcing may be inadequate and should
              be monitored for any future cracks. However, the USACE assessment found that the building did
              meet Afghanistan's Ministry of Education (MoE) standards. Prior to transferring the school over to
              the MoE, Task Force (TF) Tarpon will meet with MoE and to see if they will accept the risk for this
              structure based on the USACE report. If the structure of the school is accepted ..as is'· by MoE. the
              ceiling should be monitored for any cracks develop that are over 2rnm.

              b. Require the contractor to correct any deficiencies or substandard work identified during the
              physical inspection and tests.

              CONCUR with COMMENTS: During site inspections conducted by Alpha Company/486th Civil
              Affair; Battalion, Civil Affairs Team Bravo personnel conducted on 2114/13 and 3/ 16/2013, the
              contractor was informed to correct discrepancies that were identified. Any discrepancies that arc
              identified during final inspection will be addressed. The contractor has a one year warranty for any
              defects on their work.

              c. Review the product substitutions made, and, based on a price analysis, determine whether the
              changes warrant a reduction in the overall cost of the contract.

              CONCUR with COMMENTS: Substitutions were made on the direction of the MoE. The contractor
              followed , as a standard practice in Afghanistan. A new IGCE with the substitutions was performed
              and the substitution costs exceeded the costs of the original lGCE. The contractor agreed to absorb
              the additional costs. A contract modification was exercised modifying the statement of work.




SIGAR Inspection 13-10/Bathkhak School Addition                                                                           Page 12
              AFZF-TFT-CO
              SUBJECT: SIGAR Inspection 13-10 Bathkhak School: Unauthorized Contract Design
              Changes and Poor Construction Could Compromise Structural Integrity


              d. Identify the contracting officer(s) responsible for initial oversight of the Bathkhak school
              construction activities and determine why

              COMMENT: Initial CORs were CPT Michael Miller (Program Manager) and CPT Eric Wahner
              (Project Manager).

              (I) no oversight visits were made during the first 6 months of construction;

              COMMEi'-!T: QA/QC visits were documented on December II, 2012, December 18,201 2, February
              14, 2013, 16 March 2013, 4 Apr 2013, 25 April 2013, 20 May 2013, 13 June 2013 , and then on 27
              Jun 2013. On 14 Feb 2013 SFC Harris (A 486th CA) noted the modifications recorded situation on a
              memorandum. Other oversight visits could have been made but were not documented.

              (2) no contract modifications were made approving the contractor's substitution of building
              materials; and

              COMMENT: Substitutions were made on the d irection of the MoE. The contractor followed. as a
              standard practice in Afghanistan. For example. adding a wall to separate the female and male
              classrooms is a cultural norm in Afghanistan. Although no official CERP contract modification was
              submitted. a MFR was uploaded documenting the changes to the SOW made by the MoE.

              (3) no pricing determinations were made of the building materials substituted for those required in
              the contract.

              COMMENT: A new lGCE with the substitutions was performed and the substitution costs exceeded
              the costs of the originaiiGCE. The contractor agreed to absorb the additional costs. A contract
              modification was exercised modifying the statement of work. This information was determined on
              first site visit conducted by SFC Charles Gon7..alez once he took over the project in April of20 13.
              This was noted on 4 April 2013 and memorandum was submitted to the official project file.

              2. Determine disciplinary action, if any, should be taken against the contracting officer(s) responsible
              for not properly overseeing construction activities.

              COMMENT: It is recommended that no discipl inary action should be taken against CERP
              PMs/PPOs. As you are probably aware, other factors affect project management, such as the local
              security conditions, availability of coalition support, contractor issues, construction supplies. weather,
              and personnel availability. The complexity of the RIP/TOA process between the TFs has attributed to
              project managers across multiple Task Forces not completely understanding the status of their
              projects across the battle space.

              3. As a positive result of this report, TF Tarpon has implemented several new policies. It is re-
              inspecting all the recently completed CERP infrastructure projects within their battle space. So far,
              seven of fourteen were found to have deficiencies and the contractors responsible for warranty work
              are performing the corrections. In addition. contracting officers and representatives are being limited
              on their project workloads to ensure issues do not occur in the future.




SIGAR Inspection 13-10/Bathkhak School Addition                                                                            Page 13
              AFZF-TFf-CO
              SUBJECT: SIGAR Inspection 13-10 Bathkhak School: Unauthorized Contract Design
              Changes and Poor Construction Could Compromise Structural Integrity


              4. Point of contact for this action is LTC David Pinkston, USFOR-A J9,
              Email:                                                                          or
              LTC David Ward, Task Force Tarpon Civil Military Officer, Email:
                                                                      .



                                                        )r~
                                                          SYLVESTER CANNON
                                                          COL,MP
                                                          Commanding




SIGAR Inspection 13-10/Bathkhak School Addition                                                    Page 14
APPENDIX V - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Milton Naumann, Senior Auditor
Warren Anthony, Senior Auditor
Lee Dillingham, Professional Engineer
Lise Pederson, Professional Engineer




SIGAR Inspection 13-10/Bathkhak School Addition       Page 15
                                   This inspection report was conducted
                                     under project code SIGAR-I-005D.




SIGAR Inspection 13-10/Bathkhak School Addition                           Page 16
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
